                                   CLOSEOUT FOR M97040014

                       This case came to OIG on April 24,1997, when Dr.
       (the complainant) of (           t         h         e university) a l l e g w -
    hte-                      Center), a nonprofit organization with which he had formerly
       collaborated, had misrepresented his work as its own. The complainant was head of the
                                                  the project) at the university, and the Center was
       licensed to disseminate and adapt work that the project produced. The Center was run by
het-                               first subject). Dr. I            !           f
     -the              second subject) was chair of the Center's board of directors. The
       complainant had formerly been chair of the Center's board of directors, but was no longer
      affiliated with the Center at the time he complained to OIG.

          The subjects were the PIS for -entitled                   ''W
                                                                   ' Some of the complainant's
                                                                     award (the progress report).




 -"
  Other allegations referred o-t                    entitled "-




  was pending when OIG received the initial complaint and has since been funded. The
  complainant's work on the project had been funded by NSF award-
      & '
  entitled                                                                         and
  its successor award, ESI-9553841, entitled '
                 - - . r D

        In a series of communications with OIG following his initial complaint, the
 complainant cited numerous instances of alleged misrepresentations in the progress report
 and the Center's second proposal to NSF.

         OIG examined the progress report and the Center's second proposal. We noted
 that both documents made abundant reference to the role of the complainant and the
 project in developing the materials that the Center was adapting and disseminating. We
 concluded that understanding the activities and accomplishments of the project was
 important to understanding the 'Center's activities, and that the subjects had appropriately
 included statements describing the project's work in their submissions to NSF. It is
 possible that a careless or uninformed reader, inattentive to the distinction between the
 Center and the project or unaware of the breach that had developed in the collaboration
 between the two, might interpret the subjects' statements about the project's activities to
 be statements about the Center's own activities. However, we concluded that only


                                        page 1 of 2                                 M97- 14
                             CLOSEOUT FOR M97040014

evidence of misrepresentations by the subjects, and not evidence of misinterpretations by
others, could constitute evidence that the subjects had committed misconduct in science
in this case.

        In specifling his complaint, the complainant cited numerous allegedly misleading
statements by the Center that the complainant believed were literally accurate but
"artfully" designed to cause readers to form an exaggerated view of the Center's
accomplishments. OIG concluded that making accurate statements such as these could
not be considered misconduct in science. The complainant also cited some statements of
whose accuracy he was uncertain and noted certain alleged copyright violations that the
university's attorneys were pursuing. But he provided no evidence that the Center
seriously misrepresented its activities to NSF. OIG concluded that, however desirable it
might have been for the Center to draw more attention to the distinction between itself
and the complainant's project, there was no evidence that the Center's statements were
substantially inaccurate and no substance to the idea that the subjects had committed
misconduct in science in making them.

        Before raising a misconduct complaint with OIG, the complainant had informed
NSF program managers about the rift between his project and the Center. The program
managers sought and received clarification from the subjects concefning the relationship
between the project and the Center. In the complainant's conversations with OIG, he
presented limited circumstantial evidence raising the possibility that the Center had
engaged in financial irregularities unconnected to its NSF award and indicated that legal
disputes between the university and the Center might prove time consuming and difficult
to resolve. When OIG receives information that raises credible and substantive program
management issues, OIG refers that information to NSF to evaluate whether the issues
warrant management action. In this case, OIG concluded that this information might be
relevant to grants and program management and informed the cognizant NSF Division of
Grants and Agreements official of possible obstacles to responsible management and
effective use of NSF grant funds at the Center. NSF grants and program officials
subsequently met to discuss the Center's pending proposal, sought additional information
about the Center, and made an award for a reduced amount in light of the information
they had received. OIG concluded that there was no reason for further OIG involvement
regarding the management of the awards involved in this case, and NSF management did
not request such involvement.

       This inquiry is closed and no further action will be taken on this case.   ,


cc: IG, AIGO, Legal, Investigations




                                   page 2 of 2
